<html>
<title> - HEARING ON CAMPAIGN FINANCE REFORM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   HEARING ON CAMPAIGN FINANCE REFORM

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 28, 2001

                               __________

      Printed for the use of the Committee on House Administration







                        U.S. GOVERNMENT PRINTING OFFICE
89-864                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York

                           Professional Staff

                       Neil Volz, Staff Director
                   Bob Bean, Minority Staff Director


                   HEARING ON CAMPAIGN FINANCE REFORM

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:15 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Mica, Linder, 
Doolittle, Reynolds, Hoyer, Fattah and Davis.
    Staff Present: Neil Volz, Staff Director; Channing Nuss, 
Deputy Staff Director; Roman Buhler, Counsel; Paul Vinovich, 
Counsel; Fred Hay, Counsel; Jeff Janas, Professional Staff; 
Troy Walton, Staff Assistant; Sara Salupo, Staff Assistant; Bob 
Bean, Minority Staff Director; Keith Abouchar, Minority 
Professional Staff; Matt Pinkus, Minority Professional Staff; 
and Charles Howell, Minority Chief Counsel.
    The Chairman. The committee will come to order. The House 
Administration today is holding its fifth hearing on campaign 
finance reform. This committee received numerous requests from 
Members who wish to be heard on this issue. Members have 
introduced bills that don't care and to put them on the record. 
We have a number of Members waiting to testify. So we will get 
started, and Mr. Barr of Georgia will begin.

 STATEMENT OF THE HON. BOB BARR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Barr. Thank you very much, Mr. Chairman. I deeply 
appreciate the opportunity to testify this afternoon on an 
issue that should seriously concern every American citizen who 
values the U.S. Constitution. In fact, Mr. Chairman, I would 
like to even thank you for holding this hearing at all. For all 
of the posturing, the bloviating and the media interviews by 
Members of the other body during debate on McCain-Feingold 
earlier this year, not a single hearing was held. Not one word 
of testimony from ordinary Americans was heard. This is sadly 
ironic, since the leaders of this effort in the Senate claim 
those are the very people they are seeking to help. Yet during 
debate the voices of everyday Americans were extinguished, 
which is exactly what would happen throughout this Nation if 
the campaign finance bill passed by the Senate is ultimately 
enacted into law.
    Americans will be deliberately and viciously stripped of 
their first amendment rights and threatened with jail time if 
they dare to speak out with their fellow citizens in the hopes 
of affecting the electoral processes.
    This is not reform legislation to help ordinary American 
citizens make their voices heard. This is incumbent protection 
legislation. It is designed specifically to muzzle the voices 
of American citizens at the most critical time in which their 
voices should be heard in the weeks leading to an election. In 
fact, the restrictions on free speech are so severe in this 
bill, I have trouble distinguishing it from a quote made 
recently by the Chinese Foreign Ministry spokesman regarding 
impending restrictions on free speech in Hong Kong. He said, 
``People will have full freedom of expression, but all freedoms 
must be within the limits allowed by law.'' It sounds to me a 
bit like the old adage in Animal Farm, ``All animals are equal, 
but some animals are more equal than others.''
    Another parallel, Mr. Chairman, is found in testimony 
submitted in writing by Mr. Phil Kent, President of 
Southeastern Legal Foundation, earlier this month, in which he 
compared the eerie resemblance between the McCain-Feingold 
language and the Sedition Acts from the late 18th century in 
which it was a crime to speak out against government policy or 
individuals.
    In a country, Mr. Chairman, of hundreds of millions of 
people, it is often difficult for one person to make his or her 
voice heard. However, working together with fellow citizens, 
Americans have the ability to accomplish great things, to be 
heard. Yet this legislation from the Senate would severely 
limit the ability of legitimate grassroots organizations, such 
as the National Rifle Association and the Christian Coalition, 
to educate and inform voters. Heaven forbid that a lawful 
organization, comprised of concerned citizens, would hand out 
fliers, educating voters on the issues and candidates' voting 
records. Mr. McCain would put them in jail.
    At a time when we are finding it increasingly difficult, 
Mr. Chairman, to educate voters as to issues and candidates 
when, for example, in the last presidential election only 50 
percent of eligible voters voted, and in the most recent 
Congressional cycle, I believe the figure was down about 42 
percent, and at a time when far too few citizens are 
registering to vote or actually voting, we ought to be doing 
more to improve voter awareness and participation.
    The legislation passed by the Senate doesn't either and in 
fact moves us in the opposite direction. In Senator McCain's 
America, citizen organizations, such as the NRA, face severe 
monetary fines and their offices face prison time if they dare 
to even share their views with the public on an issue important 
to their members 60 days before a general election. What is 
Senator McCain thinking? Is this his goal, to silence the NRA 
and other grassroots organizations? I take particular exception 
to the spin employed by the campaign finance zealots who have 
smeared effective grassroots organizations as the so-called 
Washington personal interests who are corrupting our electoral 
system. If recognizing that without a strong second amendment 
Americans might as well forget the rest of the Bill of Rights, 
especially the first amendment's free speech protections, then, 
yes, I and other members of the NRA and other grassroots 
organizations take a special and vested interest in defending 
those rights.
    However, those who disagree with that cause, those who 
believe that the second amendment should be wrapped in Federal 
red tape, as do several sponsors of the Senate legislation, 
should not have the right to stand before television cameras, 
doing media interviews night after night and promote their 
beliefs, while at the same time making it illegal for ordinary 
citizens who oppose them from defending themselves. This is 
morally wrong, and it is an affront to our Constitution.
    But consistency is not always a surplus commodity on the 
other side of the Rotunda. Before passing bad legislation such 
as this, Mr. Chairman, we ought to do a better job of enforcing 
the many campaign laws already on the books. Consistent law 
enforcement and protection of the first amendment rights of 
American citizens to express themselves in public elections are 
the keys to creating a quality system of campaign finance, not 
more laws, such as McCain-Feingold or Shays-Meehan.
    In closing, Mr. Chairman, I can't help but notice that from 
Senator McCain's perspective, this legislation would have at 
least one benefit. The 250,000 dollar anti-gun ad campaign in 
which he is participating, shown at movie theatres around the 
country, which I might add is funded not by the grassroots 
donations of thousands of citizens but by a single Internet 
billionaire, would be exempt from the severe free speech 
restrictions of his own bill. You see, the so-called public 
service ads are not restricted under this legislation. At least 
certain privileged Americans would still be able to speak their 
minds in public, such as Mr. McCain, if this bill is passed.
    As George Orwell would have said, ``All voices are equal, 
but some are more equal than others.'' he might be proud of 
McCain-Feingold, but we should not be, and I commend you, Mr. 
Chairman, and this committee for listening to the public, 
listening to their representatives in the Congress and being 
respectful of the Constitution of the United States of America. 
Thank you, Mr. Chairman.
    [The statement of Mr. Barr follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.001
    
    [GRAPHIC] [TIFF OMITTED] 89864A.002
    
    [GRAPHIC] [TIFF OMITTED] 89864A.003
    
    [GRAPHIC] [TIFF OMITTED] 89864A.004
    
    [GRAPHIC] [TIFF OMITTED] 89864A.005
    
    The Chairman. I thank the gentleman from Georgia for 
testifying. As I understand, he has another commitment and 
won't be available for questions. Correct?
    Mr. Barr. I do appreciate if I could be excused, Mr. 
Chairman. We have a markup on a very important piece of 
legislation for the President, the faith-based initiative bill 
in Judiciary Committee, and Chairman Sensenbrenner has asked us 
to be there, and if I could take my leave of the committee, I 
would appreciate it.
    Mr. Hoyer. Mr. Chairman, can I make an observation, and I 
don't want to get into a discussion. I know your time is 
limited, but I was struck and I understand entirely your 
argument with respect to the ability of the NRA to make its 
points, as it should be able to do, just like every other group 
should be able to do, but I am struck somewhat in your 
language, from my perspective, so you understand, in terms of 
the Paycheck Protection Act. That would effectively prohibit 
labor unions, in my opinion, from doing the same thing that you 
suggest; that is, communicating both with the public and with 
legislative bodies at every level, absent every time they 
wanted to make a statement checking with all their members. A 
corporation couldn't do that and a labor union would be 
effectively put in the same position.
    I offer that only because I think the principle for which 
you speak is absolutely an essential one in a democracy, but 
you might want to look at that. It obviously has broader 
application and effect. But I thank you for your testimony.
    Mr. Barr. And I understand the distinguished gentleman's 
point of view, and I certainly understand it deeply. Thank you. 
Thank you again, Mr. Chairman.
    The Chairman. And we will move on to Mr. Gonzalez, the 
gentleman from Texas.

  STATEMENT OF THE HON. CHARLES GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gonzalez. Mr. Chairman and ranking members of the 
committee, first of all thank you for taking me out of order 
and to my colleagues for allowing me to go first here. I am due 
to testify over in the Senate, and I am going to be a few 
minutes late but this is obviously a very important issue. 
Campaign finance is an issue about which I and other members of 
the Hispanic Caucus feel very strongly. I will briefly outline 
the concerns and issues many of the members of the Caucus have 
discussed over the past several months on campaign finance 
reform.
    As minorities, the right to vote and participate in the 
political system has only come after long, hard battles. My 
father, who represented the 20th Congressional District for 37 
years and who I have the privilege today of succeeding after he 
retired from Congress, was a tireless proponent of political 
participation for minorities. The first bill he introduced when 
he came to Congress in 1961 was legislation to eliminate the 
poll tax.
    While some of these issues may seem more closely related to 
election reform than campaign finance reform, the Caucus 
believes the right to participate in the electoral process 
extends beyond voting, to issues of how our elected officials 
campaign for office. In essence, the work we do on campaign 
finance should constitute another step in the development of a 
more accessible and equal election system, one where those with 
money do not have an inordinate amount of clout as opposed to 
the average citizen.
    The Hispanic Caucus has met a number of times as a group to 
discuss this topic and has developed several principles which I 
will discuss today. But first let me state that the Caucus 
supports the broad principles of campaign finance reform as set 
forth in the Shays-Meehan bill, which all Caucus members voted 
for in the last Congress. The members of the Caucus 
wholeheartedly agree that the unregulated use of soft money, 
especially that has been used by outside groups to fund media 
attacks, is wrong and destructive to our system of governance. 
The Caucus does, however, recognize that there are legitimate 
campaign activities where the limited use of soft money could 
be beneficial. I am referring specifically to voter 
registration and get-out-the-vote programs that serve to 
enhance the participation of every voter and encourage an 
honest and rigorous debate. The Caucus strongly supports 
limited use of soft money for these activities.
    Secondly, the Caucus has determined that it is not in the 
best interest of our collective constituencies to support a 
doubling of the hard dollar individual limits from $1,000 to 
$2,000. Philosophically, many members of the Caucus feel that 
if we are eliminating soft money because it is a corrupting 
influence on the process, we should not at the same time 
increase the hard dollar limits, which only further widens the 
political access gap between the wealthy and the poor.
    Additionally, for minority members with poor 
constituencies, we believe that an increase in the hard dollar 
limit would require those members to look outside their 
districts to raise money, even more than they do today. We 
believe this has a negative effect on the ability of these 
members to represent their constituents and potentially makes 
them beholden to and dependent on outside influences.
    Consequently, the Hispanic Caucus strongly summits keeping 
the current limits.
    Third, the Caucus is firmly opposed to any efforts to limit 
or eliminate the ability of legal permanent residents to 
contribute to Federal campaigns. As the committee already 
knows, under current law legal permanent residents may make 
political contributions under the same rules as United States 
citizens. As representatives of Congressional districts that 
often consist of large numbers of local residents who are not 
allowed to vote, the Hispanic Caucus does not want to see these 
people further removed from the political process.
    Furthermore, the Caucus feels that it is in the best long-
term interest of this country to have these future citizens 
involved in the process as early as possible. It is common 
knowledge that minorities vote at rates far lower than those in 
the majority communities. But allowing these legal residents to 
remain involved in the process may help them to be more 
involved as citizens and voters at a later date.
    I would like to conclude by just saying that the Hispanic 
Caucus' opposition to increasing the hard dollar campaign 
contribution limits, its support for exemptions that would 
allow soft money to be used for voter registration and get-out-
the-vote activities and its support for the right of local 
permanent residents to make campaign contributions should not, 
and I repeat should not, be viewed as a retreat from or an 
attempt to frustrate the essential aim of campaign finance 
reform, which is to eliminate the abuses of soft money. These 
concerns are raised simply to ensure that we avoid unintended 
and negative consequences affecting minority voter 
participation and the ability of Hispanics to get elected to 
public office.
    Again, I commend you all for what you are doing. I am glad 
you are bringing this to the forefront, maybe offering some 
alternatives, addressing the concerns of all interested 
parties, and again I wish I could remain, if you had any 
questions on campaign finance reform and the minority 
communities. Again, thank you very much for this opportunity.
    [The statement of Mr. Gonzalez follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.006
    
    [GRAPHIC] [TIFF OMITTED] 89864A.007
    
    [GRAPHIC] [TIFF OMITTED] 89864A.008
    
    The Chairman. I want to thank the gentleman from Texas, Mr. 
Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I just wanted to thank 
you for those comments, and of course I always have a great 
appreciation for your father, too, and enjoyed serving with 
him. The principles you have outlined as a representative of 
the Congressional Hispanic Caucus are very valid ones. There is 
one case, and I don't mean to take time to go into details, one 
case where you can't go as far as you want simply because of 
constitutional restrictions, but the majority of it I think is 
agreed to by this committee, and I believe that is the 
direction we will be moving. And I think what we are likely to 
produce is much more likely to be an agreement with the 
principles that you have stated than the Shays-Meehan proposal.
    So I appreciate your comments. They reflect my thinking as 
well, and I hope we can get that done and get it passed by the 
House. Thank you.
    Mr. Gonzalez. And the Caucus appreciates that we do have 
input. Thank you.
    The Chairman. Thank you. Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, I want to thank Mr. Gonzalez. He 
has been the point person for the Hispanic Caucus on not only 
campaign finance reform but also election reform on which you 
and I are working so hard. He, as I think, Mr. Ehlers pointed 
out, gave a very thoughtful statement on which I think many of 
us could agree with most of the points raised, and I appreciate 
his comment as well that those comments were not offered in any 
way to undermine the basic thrust for reform and reducing the 
effects of unlimited soft money into the system, and I 
appreciate very much his testimony. It was excellent testimony, 
and I testified before him, and perhaps we took too long. So he 
is now returning to the Senate to testify.
    Mr. Gonzalez. Thank you very much, and Congressman, most of 
the members have been on discharge petitions on Shays-Meehan, 
and we have gone on record voting for it in the past. We are 
looking at it now, and of course there are a couple of minor 
problems, but still the very heart and soul of that legislation 
will not be laws, even with these recommendations, but thank 
you again.
    The Chairman. I want to thank the gentleman and note also 
you have the commitment.
    Thank you. We move on to Mr. Petri.

    STATEMENT OF THE HON. THOMAS PETRI, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Petri. Thank you, Mr. Chairman, for giving me this 
opportunity as well. I would like to bring to your attention a 
proposal that I hope is relatively noncontroversial, but at the 
same time would go a long way toward curbing one of the abuses 
in today's campaigns. This is embodied in H.R. 150. It would 
bring the campaign method known as ``push'' or ``smear'' 
polling into the Federal Election Commission reporting system.
    Most of you are aware and perhaps even from first-hand 
experience of this practice, in which someone claiming to take 
a poll asks the respondent if he or she would support a 
particular candidate if that candidate had committed some 
terrible act, thereby planting in the voter's mind the thought 
that indeed the candidate had done so. A sample smear poll 
question would be something like, would you still vote for 
candidate X if you knew that he is having an affair with his 
secretary or that he cheated on his taxes, and so forth?
    This practice has been used against members of both parties 
and the targeted candidate is usually unable to respond, 
because unlike attacks on public speeches or on TV or radio, he 
or she is usually not aware of it until it is too late. For so-
called polls which involve more than 1,200 recipients, my bill 
requires a disclaimer informing the respondent of the source of 
funds for the poll. It also requires those conducting such 
polls to report to the Federal Election Commission the source 
of funds for the polls, the number of households contacted and 
the copy of the questions that are asked.
    I believe that setting the number of respondents at 1,200 
will keep legitimate polls exempt, as such polls rarely require 
samples that large. An effective push poll, on the other hand, 
involves calling many more than 1,200 households, because its 
purposes is to spread rumors as quickly and as widely as 
possible. The legislation does not affect legitimate phone 
banks in any way.
    To qualify for the FEC reporting requirements of this bill, 
one has to ask questions about candidates for Federal office, 
not merely disseminate information. The aim here is not to 
restrict campaigning but merely to remove the cloak of 
anonymity from one very specific tactic. If candidates, parties 
or independent organizations still want to use push polls, they 
are free to do. So it is a free country. They should, however, 
be willing to stand behind their actions and to take credit or 
blame for them.
    We could find a suitable vehicle to advance this reform. It 
would be a small but concrete way to improve the conduct of 
campaigns. It is a similar legislation that has been introduced 
by my Democratic colleague in the last several Congresses, 
Carolyn Maloney from New York. We have testified together 
before the Federal Election Commission, which felt it well 
within their purview to do this, because disclaimers are 
required on printed matter, but this is a new technology, and 
so--but they felt it should be done by Congress, not by them. 
And so we are turning to you to, as you review the different 
bills before you, consider including this as a provision.
    I thank you.
    [The statement of Mr. Petri follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.009
    
    The Chairman. I thank you. I appreciate that testimony. Mr. 
Bereuter.

   STATEMENT OF THE HON. DOUG BEREUTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Bereuter. Chairman Ney, Mr. Hoyer, members of this 
committee, thank you very much for this opportunity to testify 
on behalf of the specific element of campaign reform 
legislation.
    It is clear to me that effective campaign finance reform is 
of fundamental, even crucial importance to our political 
system. Our failure to reduce the disproportionate impact of 
money in elective politics is having a corrosive influence on 
the American political process, contributing to suspicion and 
cynicism in the American people.
    Furthermore, there is more than enough blame to go around, 
as I believe it is deplorable that the two political parties 
have been unwilling to come together to reform this process by 
relinquishing or modifying the inappropriate elements of our 
current campaign finance system that favor each particular 
party. I remain committed to such a package of reform and will 
continue to be active in pursuing it. Actually, I put this on 
top of my agenda of the things we need to do in Congress 
because it affects so much else that we do or fail to do here.
    In the past I have introduced some comprehensive 
legislation, and I have been involved in various task forces to 
look at it, but I come again to this committee with one 
specific proposal not too hard to understand. It comes about as 
a result of what we learned during the 1996 presidential 
election season, campaign contributions from foreign sources. 
And I believe Mr. Hoyer has heard this testimony in part at a 
previous time. In December of that year, I announced my 
intention before a local Chamber of Commerce in Lincoln to 
introduce legislation to make it impossible to prohibit foreign 
individual campaign contributions, and I introduced that 
legislation on the first day of the 105th Congress. The House 
acted, included it by an amendment on the floor. We had no 
appropriate action in the Senate.
    On the first day of the 106th Congress, I reintroduced that 
legislation. Again, the House acted in that respect, took the 
provisions of my legislation as they did in the previous 
Congress, fought by filibuster in the Senate.
    So in the first day of this Congress, I again introduced it 
in a form of H.R. 35. I introduced it because the situation 
remains the same.
    Many Americans believe it ought to be illegal for 
foreigners to make Federal campaign contributions and certainly 
oppose such a contribution loophole. The problem is that they 
are both right and wrong, under our current Federal election 
laws. The fact of the matter is that under our current Federal 
election laws, you do not have to be a U.S. Citizen or U.S. 
National to make campaign contributions to Federal candidates. 
Under our current election laws, you can make a campaign 
contribution to a candidate running for Federal office if you 
are a permanent legal resident alien, I repeat, a permanent 
legal resident alien, and you in fact reside in the United 
States.
    I believe the situation is wrong. I believe that most 
American would agree it is wrong, and I believe that it is a 
problem begging for correction. IN addition, of course, it is 
highly problematic to check on whether the person with the 
permanent legal resident alien status actually does reside in 
the United States, and we saw that was abused in 1996 and 
undoubtedly subsequently.
    So the act--the proposal that I have put before the 
Congress this year, H.R. 35, would change our Federal election 
laws so that only U.S. Citizens or U.S. Nationals, as defined 
by the Immigration Naturalization Act, are permitted to make 
the individual contributions to a candidate running for Federal 
office.
    To me, it is a very simple and common sense rationale. If 
you want to be fully involved in our political process, then 
you must become a citizen of the United States. If you don't 
make the fully commitment to our country by becoming a U.S. 
Citizen, then you shouldn't have the right to participate in 
our political system by making a campaign contribution and 
thereby affecting the lives of American citizens. You shouldn't 
have a role in electing Americans officials. It is very obvious 
that the process of electing our officials should be a right 
reserved for citizens. It is wrong and dangerous to allow even 
the potential to exist for undue foreign influence in electing 
our government, and H.R. 35, and the provisions I present to 
you, is one of numerous important steps to do so.
    I can go on and suggest to you a few other reasons why it 
is problematic to permit the current law to prevail, but I 
think in the interest of affording the opportunity for my 
colleague from California to testify before we have to go to 
vote, I will decease.
    [The statement of Mr. Bereuter follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.010
    
    [GRAPHIC] [TIFF OMITTED] 89864A.011
    
    [GRAPHIC] [TIFF OMITTED] 89864A.012
    
    The Chairman. I want to thank the gentleman. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman----
    Mr. Linder. Forgive me. I don't mean to take up much time, 
but is your provision in either the Shays-Meehan or the McCain-
Feingold?
    Mr. Bereuter. It is not. I have suggested it to them, but 
they have failed to take it up. They are unwilling to go quite 
as far as it would be necessary to close the loophole.
    Mr. Linder. Thank you.
    The Chairman. Mr. Calvert.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Thank you, Mr. Chairman. Mine is a very simple 
request, and I certainly thank you for the opportunity to speak 
to the committee about the Shaw-Calvert 50/50 Campaign Finance 
bill. I have been here before to speak on this issue, as Mr. 
Hoyer has heard before, and our bill is a simple reform that 
would make candidates far more accountable to the people they 
represent by requiring candidates to raise at least 50 percent 
of their campaign funds from the individuals who live within 
the State they represent.
    Well, this is a simple requirement. It would give all 
Americans a greater voice in the political process, because 
when a candidate primarily relies on money from people outside 
their home state, one can argue they no longer need to listen 
to the concerns of their very own constituents.
    The bill is simple and straightforward. On the first report 
to the Federal Elections Committee after an election, 
candidates would have to show that they raised a majority of 
funds for that election from individuals within their own 
State.
    If it is determined that they have not met these 
requirements, they will be subject to an FEC fine of two times 
the amount of the margin between in-state and out-of-state 
contributions. Candidates will have 30 days from that 
determination to pay the penalty interest free. If the deadline 
passes without payment, interest will begin to be assessed. 
Because it is impossible to determine the origins of money 
contributed by political parties, these contributors would be 
considered 50 percent in-state money and 50 percent out-of-
state money. In other words, the parties can continue to 
contribute as they wish.
    I introduced similar language in an amendment to the 
campaign finance bill that came to the floor last Congress. 
That received 179 votes.
    In past years I have heard from a number of Members who 
were concerned about wealthy candidates abusing provisions with 
their own advantages. These are valid concerns. We have amended 
the language accordingly. In this year's bill, should a 
candidate face an opponent that uses more than $250,000 of 
their own funds in a campaign, all candidates would be exempt 
from this bill's provisions.
    This bill is common sense electoral reform that would go a 
long way toward restoring Americans' faith in the election 
campaign system, and I certainly thank you, Mr. Chairman, for 
allowing me to testify.
    [The statement of Mr. Calvert follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.013
    
    [GRAPHIC] [TIFF OMITTED] 89864A.014
    
    The Chairman. I want to thank the gentleman. The gentleman 
from Pennsylvania, Mr. English.

    STATEMENT OF THE HON. PHIL ENGLISH, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. English. Thank you. Mr. Chairman, what I would like to 
do is spread my remarks on the record and keep my actual 
statement very brief.
    I wanted to support, first of all, what Mr. Calvert is 
doing, and what Mr. Shaw is doing. I have introduced similar 
legislation, H.R. 1445, that comes at campaign finance from 
maybe a different perspective than some of the other proposals. 
I see one of the primary problems through our system of 
campaign finance that we tend to advantage incumbents over 
challengers. I think we need to have a more competitive system 
and have a healthier system, and I think at the same time we 
need to control the flow of hot cash. The best way to do that 
is through a 50/50 proposal, as Mr. Calvert outlined, to 
require that 50 percent of a candidate's money be raised in 
their home State and 50 percent of it be raised from 
individuals as opposed to political action committees. That 
will force incumbents to attend to their districts, force 
candidates to base their support in their home communities, and 
in the long run I think dramatically improve our system.
    Two other suggestions to improve the system: One, I think 
we should go back before this became politically incorrect and 
take a look at putting restrictions on bundling. Back when I 
was first getting involved in campaign finance reform, many of 
the organizations that were concerned about our system of 
campaign finance targeted bundling as a very serious abuse. 
Since then some seem to have accepted bundling, which is, after 
all, a way around the limits as a legitimate practice. There 
are a number of ideological groups that practice bundling, and 
so there is great resistance to tackling bundling as an abuse. 
I would encourage this committee to take a look at bundling and 
putting a ban on bundling that would restore the original 
intent of contribution restrictions.
    And finally, I am very concerned with the growth in 
incidence of wealthy candidates who apply uneven resources to 
campaigns and are able to buy their way into higher office. One 
of the particularly troublesome aspects of this is to see a 
candidate loan themselves a large amount of money and then once 
they are elected to Congress, spend a lot of time repaying the 
loan, in effect raising money from within the political 
community to pay themselves back.
    I would suggest one way to deter millionaire candidates or 
at least make sure they are serious about what they are 
committed to is to deem any loan to one's own campaign after an 
election, the first of the next year, to have been a 
contribution rather than a loan. That would go a long way 
toward leveling the playing field and providing for a more even 
distribution of resources.
    I thank you, Mr. Chairman, for the willingness of this 
committee to directly tackle some of these very important 
issues and think outside of the box on how to do a campaign 
finance reform that will level the playing field, allow both 
parties to be competitive, allow challengers and incumbents to 
be competitive and reduce the dependence on hot cash and get 
back to grassroots campaign, which I know the chairman is 
particularly a practitioner of.
    [The statement of Mr. English follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.015
    
    [GRAPHIC] [TIFF OMITTED] 89864A.016
    
    [GRAPHIC] [TIFF OMITTED] 89864A.017
    
    The Chairman. I want to thank the members of the committee. 
I am sorry. We have run out of time. We have a floor vote. I 
ask unanimous consent that members have 7 legislative days to 
insert extraneous material into the record and for those 
statements and materials to be entered at the appropriate place 
in the record. Without objection, the material will be entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at today's hearing. Without objection, so 
ordered.
    I would also note we are going to adjourn, vote, and then 
we will come back for a markup. Having completed our business 
for today and for the hearing on campaign finance reform, the 
committee is hereby adjourned.
    We will return after the vote and reconvene and begin the 
markup.
    [Recess.]
    The Chairman. I would like to ask unanimous consent to 
reconvene the hearing for purposes of testimony from Mr. Shaw.
    Mr. Hoyer. Reserving the right to object, simply to say 
that I look forward to the testimony of the distinguished 
gentleman from Florida.
    The Chairman. We will note that. Thank you.

 STATEMENT OF THE HON. CLAY SHAW, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Shaw. Thank you, Mr. Chairman, and Mr. Hoyer. I 
appreciate your indulgence. I will be very brief. I have a 
written statement, which I will ask to make a part of the full 
record and I would just like to point out two matters which I 
think are somewhat unique. One of them certainly is.
    Having been on the receiving end of a lot of money, the 
soft money issue that we saw in the last election, I can fully 
understand those that have been pioneering for campaign finance 
reform. Unfortunately, but I think probably understandably, 
everybody wants some type of a leg up on this or an advantage 
with regard to this.
    The approach that I have as to television and radio 
broadcasting, however, does not favor one party over the other. 
In its simplest form, it would simply say that any broadcaster, 
accepting that type of ads, whether issue ads, soft money ads, 
would have to, by accepting that, give the other side equal 
time at no cost to that person. That will close that down. It 
will close that loophole down, and because of the Congress's 
jurisdiction over broadcasting, I have no question in my mind 
but that what I am suggesting is perfectly constitutional.
    One other point that I would like to make to the committee 
is that another provision in my bill which provides that half 
of the money received by a candidate has to come from within 
that candidate's own State, whether he be a Senator or whether 
he be a House Member. I am not confining it to the particular 
districts, because there are districts that are more affluent 
than others and that would create all kinds of problems, plus a 
question of some of the jurisdictional lines of the 
Congressional districts are somewhat confusing, to say the 
least.
    Those are the two points that my testimony makes, and, 
again, I thank the chairman and the committee for its 
indulgence in allowing me to testify.
    [The statement of Mr. Shaw follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.018
    
    [GRAPHIC] [TIFF OMITTED] 89864A.019
    
    The Chairman. Any questions? Mr. Linder.
    Mr. Linder. I am just curious to know how this commercial 
is going to be identified by the broadcasting outlet. Do they 
make the determination as to whether it is an attack ad? How do 
you define it?
    Mr. Shaw. I define every ad that is on the other side as 
attacking, but obviously that is not true. We are also somewhat 
paranoid in that area, but I think that what we have here, if 
it is an advocacy ad for one candidate or the other or if it 
attacks that candidate or criticizes that candidate in one way 
or another. And of course this is in the area of a campaign. We 
are finding that so many campaigns now are being run from the 
basements of Washington rather than the Main Street of the 
Congressional district, and that is the danger that I see and 
that is the trend that I see. That really concerns me.
    I worry about the constitutionality of some of the 
approaches. Obviously campaign finance reform is something that 
is necessary in this country, but it is not nearly as important 
as the preservation of the Bill of rights and those rights that 
are so dear to this country. We don't want to trample on them. 
And all of us have taken an oath to uphold the Constitution of 
the United States, which in my opinion would be if we are 
seeing that that is unconstitutional, we should oppose it on 
the floor when it comes to voting for or against it. And I have 
problems with some of the provisions that I have seen.
    I know that there is a lot of work in progress right now, 
including the work of this committee and of others that will be 
putting forth various bills for campaign finance reform, but I 
think it is terribly important that all of us, particularly in 
the area of the right of free speech, that we tread very 
carefully upon the rights that we hold so dear that are within 
the Constitution's Bill of Rights.
    Mr. Linder. Thank you. Thank you, Mr. Chairman.
    The Chairman. Other questions? Again, thank you, gentlemen.
    The committee is now adjourned.
    [The statement of Mr. Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 89864A.020
    
    [GRAPHIC] [TIFF OMITTED] 89864A.021
    
    [Recess.]
    The Chairman. The committee is now in order for the purpose 
of consideration of campaign finance reform legislation, and I 
wanted to make an opening statement.
    This afternoon I introduced H.R. 2360. This bill is 
designed to enact meaningful campaign finance reform while 
preserving the important role grassroots political parties have 
played in our democracy. This bill respects our Constitution 
and does not seek to punish or discourage those citizens and 
independent groups who exercise their constitutional rights to 
participate in our political process.
    Let me just summarize the bill for the members. My bill 
bans the parties from raising or using soft money for Federal 
election activities, including broadcast issue advocacy. So we 
have a good solid ban in this bill.
    The principal complaint leveled against so-called soft 
money is that it is unlimited and unregulated. This bill 
addresses that complaint by limiting it and regulating it. With 
the passage of this bill, no donor could contribute an amount 
over $75,000 to any political committee. Today of course it is 
an unlimited figure. The use of those funds for Federal 
election activities would be banned; hence, the parties would 
not be running issue advocacy ads, which, in discussion with 
individuals from both sides of the aisle, have always told they 
don't like the political parties running the advocacy ads. Some 
will claim that these restrictions are inadequate and that to 
support a real soft money ban, support of other legislation, 
such as the Shays-Meehan or McCain-Feingold, would be required 
to have that true, quote, ban.
    Let me state this is clearly and directly as I can. The 
claim that Shays-Meehan, or for that matter, in fact, McCain-
Feingold, would ban soft money in its entirety is simply not 
true. It is false. The fact is aside from their attempt to 
restrict broadcast issue advocacy, Shays and McCain do 
absolutely nothing to restrict how unions and corporations 
spend soft money. Under current law, unions and corporations 
can spend unlimited amounts of soft money, communicating with 
their members, soliciting those members for contributions, and 
engaging in such political activities as registering voters and 
getting out the vote.
    Now, I don't object to that, but they are arguing that they 
have made this huge ban. I think unions and corporations have a 
right to have a voice, as do any entities in this country. Even 
under Shays-Meehan these groups can use soft money. They can 
use it to buy broadcast issue ads more than 60 days before the 
election. So the soft money is clean and okay up to the 60 
days, when it is really the intense part of an election and 
groups want to be out there. Whether it is a union or a 
corporation or whether it is NOW or Right to Life, they really 
want to be getting their point of view out, and that is when 
the ban comes in and it comes in for radio and television only.
    Shays and McCain would not stop these groups from using 
their soft dollars in this way. What Shays and McCain would do 
is prevent the national parties from using so-called soft 
dollars in a similar fashion.
    I don't think that we should restrict the ability of our 
parties to educate, register and get voters to the polls, while 
leaving unions and corporations free to do without restriction. 
Hamstringing our parties and thereby enhancing the power of 
others and other personal interest groups does not accomplish 
the stated goal of some to reduce the power of special interest 
groups. You have a two-tiered system.
    Also I want to make a personal note, and I have stated this 
before. Twenty-five years ago, I ran against the former 
chairman of this committee, Congressman Wayne ``Al'' Hayes, the 
late Wayne ``Al'' Hayes, and we have a hotly contested election 
for the State House after he had left Washington, D.C. Mr. 
Hayes to this day was a well thought of Congressman in our 
district who did many, many things for the constituents. As we 
embarked on this, I soon found out in Columbus, Ohio that when 
you went to the power to be on my side of the aisle, they said, 
you are not necessarily our type of Republican, and in fact, we 
have a little bit of a fear of getting involved in this race. 
So the party came to my aid 21 years ago and gave me a chance. 
They didn't give me a litmus test. They gave me a chance. That 
has happened on the Democrats' side, also.
    I argue that if you strip the power of our two political 
parties and any other party that wants to blossom and grow in 
this country, then in fact you make the system more of the good 
old boy country club than it really is today, of those wanting 
to embark on the political process of having to come and beg at 
one central point of the incumbent office holders.
    My bill would exempt hard dollar contributions to the 
parties from the annual aggregate limits. The bill also 
modestly increases the amount individuals and PACs can 
contribute and allows for prospective indexing of all limits, 
but it holds to the thousand dollar per limit of candidates, 
which is the current law. Part of the problem of raising funds 
flows to the fact that while prices have increased dramatically 
since 1974, we all know that, the contributions have not. 
Indexing for the future will make sure that we periodically 
adjust to account for inflation.
    This bill also provides for increased disclosure, for 
targeted mass communication. The person who pays for the 
communication would have to disclose their identity within 24 
hours of purchase.
    I, too, have been the recipient of ads. In 1996 we estimate 
over a million dollars worth of ads in the district. My beef 
with that, first of all, is that it wasn't disclosed. It is a 
free country. You run ads. That is not any complaint. But it 
wasn't disclosed. How much money was being spent? Groups with 
names who you didn't know where the money was flowing from. So 
this bill actually provides, I think, a tremendous step forward 
in disclosure.
    I would note that this disclosure provision is broader than 
the one contained in Shays-Meehan, because unlike Shays-Meehan, 
which applies only to broadcast communication, my disclosure 
provisions would apply to all forms of communication that cost 
$50,000 or over, including newspaper ads, phone banks, et 
cetera.
    Having described what is in this bill, I would like to take 
a moment to describe what is not in this bill and why. Most 
importantly, this bill does not seek to ban issue advocacy. 
Twenty-five years of court decisions from the Supreme Court on 
down have made it clear that our Constitution does not permit 
the Federal Government to regulate issue advertising. I find it 
inconceivable that we would eventually pass a bill such as 
Shays-Meehan or McCain-Feingold and we would say to legitimate 
groups who have millions of members that you are not going to 
have a voice, because your money was tainted, whether it was a 
union contribution or a corporate contribution, so 60 days 
before we are going to clamp down on you because your money was 
tainted, but we can allow one wealthy individual in this 
country, no matter who it may be, to the right or the left, to 
form their own group and within minutes of closing of the 
polls, they can still run an ad.
    That is what these bills do. They shift the power into the 
hands of the exclusively wealthy. I would rather empower and 
continue to allow freedom of speech for groups, whether it is 
Gun Control, Incorporated, whether it is NRA, whether it is NOW 
or whether it is Right to Life. I, like every Member, took an 
oath to uphold the Constitution. I can't in good conscience 
support the passage of legislation so clearly unconstitutional 
as that contained in Shays-Meehan issue ad bans. Our first 
amendment protects the right of every American to speak out on 
public concerns. Politicians may want to use the power of 
government to attempt to silence their critics, but I don't 
want to participate in that type of endeavor.
    This bill does not attempt to expand the definition of 
coordination. If the coordination language in Shays-Meehan 
becomes law, citizens will be discouraged from contacting and 
meeting with their elected representatives. This is not the way 
to increase participation in our process. We also do not 
contain criminal penalties. I ran for this office in 1994 and 
was the State Senator, Chairman of Appropriations of Ohio in 
the Senate. I knew the system. We had access to accountants, 
attorneys, knowledge of the election process. I didn't have 
that access 21 years ago, but you gain it if you are in 
incumbent.
    I am not saying we shouldn't have that, but challengers 
come forth and they try to put together an organization, and 
sometimes they make mistakes. I think that the criminal 
penalties contained in the other bills are absolutely 
outrageous. Somebody is accidentally going to go to jail. It is 
going to discourage people for becoming involved in the 
election process. Penalties are fine, but embarking down this 
road of the criminal penalty section I think is a very, very 
dangerous step.
    Real campaign finance reform encourages citizen 
participation. Real campaign finance reform protects our 
cherished rights to speak freely and associate. Real campaign 
finance reform reserves the important role of our political 
parties and our democracy.
    One thing I want to say about the process, however, and I 
think Mr. Shays would tell you this or Mr. Meehan if he was 
standing here today, we have tried to be as open as humanly 
possible. These bills are evolving as we speak. They change 
sometimes hour to hour for various reasons, but we have tried 
to remain an open process in this, tried to be clear on this 
issue. But whatever happens, the one thing I want to say is 
that I am trying to empower people. This is a good, reasonable 
measure, and what this bill does not do, it does not kill 
campaign finance reform. In fact, I think it is reasonable step 
that should appeal to many interests, from many walks of life, 
from many groups that may have diverse interests of their 
issues but should both agree that in fact they want freedom of 
speech.
    So this is not the death penalty for campaign finance 
reform. This would take it into a conference committee, I 
believe, on a fair note, that would produce a final product 
that will go to the desk of the President of the United States, 
and then we can really address reform in a fair and reasonable 
manner.
    And with that, I will yield to any other members.
    Mr. Hoyer. Thank you very much, Mr. Chairman. This is a 
significant day, though clearly not a determinative day. It is 
significant in that we will move the process forward. I will 
talk a little bit more about that specifically in just a 
moment.
    Just this past Monday, the United States Supreme Court 
affirmed the constitutionality of a key pillar of campaign 
finance law: The right of Congress to enact reasonable limits 
on campaign money. The Court opinion, as did Valeo, indicated 
that not only corruption itself but the appearance of 
corruption was an important objective of this Congress and of 
the American people.
    While the High Court's ruling did not directly address the 
campaign finance problems that today's markup will very briefly 
address, it served as a powerful wakeup call, in my opinion, to 
everyone that the principles of limiting campaign money is in 
fact constitutional.
    The decision was, as Representative Meehan has observed--
and I quote, ``wind in the sails of the movement to reform our 
badly broken campaign finance system.'' The Court's decision is 
also a powerful prelude to the consideration of legislation in 
the House of Representatives.
    Last week Chairman Ney said that he would do everything 
within his power to mark up a campaign finance bill before the 
House adjourns for the July 4th recess. As he has done 
consistently in the past, he has kept his word. Not only has he 
kept his word, but in my opinion, he has offered a bill that is 
worthy of consideration.
    Very frankly, last year, the alternative to campaign 
finance reform bill, which frankly was a good bill but did not 
relate to the issue. It was not real. This year, as I say, 
Chairman Ney has offered a real alternative. I do not support 
that alternative, but I think it is a credible and worthy 
offering to be put on the table.
    Today's markup brings the House one critical step closer to 
meaningful campaign finance reform. As I understand it, the 
committee will be marking up two bills today. Chairman Ney's 
bill, as well as what has been referred to as the modified 
Shays-Meehan bill.
    Now, I did not receive that bill until 8:30 last night. I 
received it, I think, as soon as Mr. Ney received it. I do not 
criticize anybody for that, because as Mr. Ney has observed, 
this is still a work in progress. I think it is important for 
the public to understand that and for everybody who has an 
interest in this bill, which is to say every citizen and every 
interest before the Congress.
    But I can comment on the original Shays-Meehan bill, and I 
assume that the modified version--and I know the modified 
version is very close to the original version. First of all, I 
think it bears repeating that Shays-Meehan in modified forms 
has passed the House of Representatives in 1999 by 252 votes 
with 164 opposed and in 1998 by 252 with 179 opposed.
    I believe that reform will accomplish at least three goals. 
It will end the unregulated and unlimited flow of soft money 
into the political parties that in recent years has been used 
mostly for the purposes other than get out the vote, which of 
course--or registration or voter education, except in the 
broader sense of voter education.
    Secondly, we need to require that political ads that any 
reasonable viewer would say are designed to flounce a Federal 
election are paid for with hard undisclosed money.
    Thirdly, we need to respect the rights of organizations and 
associations to communicate with their members about key issues 
affecting them. I think they have that constitutional right so 
that we could not really undermine it, but we ought not to put 
them to the test of testing legislation.
    While the chairman's mark attempts to reach some of those 
goals, it is my opinion that it fall short. Most important, the 
chairman's mark does not end the parties' dependence on soft 
money. It is instructive, I think, to note that the notes on 
both of the bills that will be before us and that will come out 
of this committee start with these bullets. The Ney bill 
summary limits soft money, while the Shays-Meehan alternative 
bans soft money. That adopts the premise that soft money in 
some form or another ought to either be eliminated or banned.
    The limitation of $75,000 is certainly a step in the right 
direction. Last year's election reached an all-time high of 
$500 million in soft money expenditures. As we learned in 1998 
and 1999 and again this year, Shays-Meehan offers a genuine 
comprehensive end to soft money.
    The letter that I received I want to read into the record 
if I might, Mr. Chairman, because again I think it is 
instructive as to why this procedure will be as it is today, 
and that is a relatively limited procedure. This is a letter 
directed to Chairman Ney and signed by Mr. Shays and Mr. 
Meehan.
    ``Dear Mr. Chairman: Following per our agreement is a draft 
text of the Shays-Meehan bipartisan Campaign Finance Reform Act 
of 2001. While we have made every effort in good faith to put 
the bill in final form, we may need to make a minimal change 
overnight based upon our review of the bill.''
    Now, that meant from last night to tonight. But here is the 
operative paragraph that all Americans ought to focus on and 
every member ought to focus on.
    ``In addition, we hope you will agree that either of our 
proposals,'' referring to Mr. Ney's proposal and to theirs, 
``should continue to be fine-tuned over the District Work 
Period. For instance, we are still engaged in dialogue and 
debate over the impact of 11 amendments and over hard money 
aggregate limits an would expect the Rules Committee to allow 
us to make necessary adjustments before going to the floor.''
    One more paragraph, brief, salutatory, and then signatures.
    The reason I read that letter is because we will not on our 
side be offering amendments at this time. Mr. Ney pointed out 
that this is a work in progress. We are expecting both bills to 
move forward, both bills going to the Rules Committee. And we 
are expecting the--Mr. Shays believes he has an agreement, I 
think, with the Speaker, Mr. Chairman, that the bill will be 
open to perfection on the floor, so that this markup is going 
to be to some degree unusual, in that at least on our side we 
will offer no amendments. I don't know about the other side, of 
course. And that these bills will move forward. And in the next 
week and a half or 2 weeks, between today and when we come back 
before the Rules Committee, presumably on the 10th or the 
11th--on the 10th, we will then appear before the Rules 
Committee with such amendments as we may believe on our side 
are appropriate, and I presume, Mr. Chairman, such amendments 
as you may believe to be appropriate to perfect or change in 
some way the legislation you have put in or, for that matter, 
the Shays-Meehan bill.
    But this is a step forward. This is a recognition that we 
need to deal with soft money. This is a recognition, at least 
on our side, and Clay Shaw's testimony I think was instructive, 
that this is not a partisan concern of the attack ads that are 
unidentified and can in many instances be very misleading and 
ought to be of concern to each person who wants honest, open, 
legitimate democratic debate in our campaigns that are 
instructive to the voters, not to be misconstrued by them 
because they don't have sufficient information on which to make 
a reasonable judgment.
    Mr. Chairman, again, I appreciate the fact that you have 
come up with an alternative that is, I think, as I said before, 
a credible alternative. It is one with which I don't agree, but 
it is certainly a real alternative, and you have kept your word 
and we are moving this process ahead.
    I expect there to be a vigorous debate on these bills on 
the floor of the House in mid-July, and I am very hopeful on 
our side that we will see a bill very close to Shays-Meehan, 
which as I say has received the very substantial support of the 
overwhelming majority of the House in 2 years in which it was 
voted on and passed again, so that we might see this sent to 
the President, enacted into law and give greater confidence to 
our citizens that the financing of campaigns is above board, it 
is not overwhelmingly influenced by those who have interests 
before this Congress, and that the American public can be 
confident that their representatives in fact are focused on 
their interests and their interests exclusively.
    I thank you, Mr. Chairman, for the time to give that 
opening statement.
    The Chairman. I want to thank Mr. Hoyer. Before I move on 
to other statements, I wanted to point out just a couple of 
things. The Rules Committee has stated the deadline for 
amendments would be July the 10th. As far as the need for Mr. 
Shays and me to continue the amendment process, final 
decisions, of course, for rules are above my pay grade, but I 
am sure it is going to be some type of situation to accommodate 
some process through rules. I mean, I am sure they will have to 
fine-tune it.
    One comment I want to make--and this is not in relationship 
whatsoever to what Mr. Hoyer said--but in this process as it 
evolved, when this bill came to the Senate, fists were pounded 
by Senator McCain to do it in 2 weeks; we have been through 
this before. It didn't matter we had new elected Members, but 
we have been through this before. You have 2 weeks; you can do 
it. And we said we would just like to have a little time for 
something called debate. It is something called the House. We 
are not the rubber stamp of the Senate.
    Having said that, the Shays-Meehan camp said, do this by 
Memorial Day, we are ready, we are ready to go, we have got our 
product, we are here, we can do it by Memorial Day. I just want 
to point out the reason their product isn't complete is because 
things changed, and the wise action of this House to say, catch 
your breath, hang on, another month is not going to be the end 
of the world, I think was a wise decision by the House, because 
it just shows that we weren't ready by Memorial Day. People's 
attitudes change. People had second thoughts. They started to 
look over it.
    So I just wanted to say for those who said why didn't you 
pass it in 2 weeks as the good Senator wanted us to or why 
didn't you pass it by Memorial Day, today proves why we didn't, 
because it is not even ready today, the product isn't.
    The Chairman. And this is not, again, relating to Mr. 
Hoyer's comments. It is relating to what I have been hearing 
since this whole process began in the Senate. I just think that 
is a very valid point. We did the right thing. We did not 
succumb to pressure. This product is still not ready. So I 
just--I am not saying I told you so. I just think sometimes in 
the emotion of things we need to say, catch your breath and 
let's give it some time.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I think there is 
interest on both sides of the aisle, and I----
    The Chairman. The next agenda item is going to be upgrades 
of these hearings rooms, so we will do that.
    Mr. Mica. Again, I think there is--it is the intent to 
reform the process, and we want it to work, and we want 
people's faith in the system to be secure. But I think when 
people looked at it they saw that it--in fact, Shays-Meehan and 
whatever version and the McCain-Feingold truly didn't ban soft 
money.
    We found also in the House and in the Congress it is very 
difficult for two reasons to ban soft money. One is this slight 
problem with a document called the Constitution and free 
speech; and that has to be debated and worked through the court 
process. But it does raise some serious questions.
    The other think is just the shear politics of it. And each 
side feels like they are being put at a disadvantage. I think 
the chairman has tried to craft something that doesn't put 
either party at a disadvantage. It does put some limits on so-
called soft money through the parties. I think it doesn't put 
either at a disadvantage, and hopefully people can feel 
comfortable with that.
    The other couple of points I wanted to make are that I 
think when you--after we debate this and debate this--I have 
been on the committee, Mr. Hoyer has been on the committee and 
others; and we hear this over and over again. I think you come 
to the conclusion that, you know, we are trying to build a rat 
trap to kill and catch rats. And it is very difficult.
    Because you look at the soft money exemption. Under some of 
these, you could get $10,000 each to State and local parties 
for 3,000 counties. You could end up with a $30 million cap for 
each entity, a so-called ban on soft money. And people, I 
think, if we pass that, would be dismayed. Minorities and 
others at a disadvantage, first-time folks out would be at a 
disadvantage. Maybe it would benefit people with money, but 
that is not what we want to do.
    So I think the second-best think is the full disclosure. I, 
too, have been a victim of the ads. You don't know where they 
are coming from. Huge amounts of money being spent. The public 
is dismayed. The people who run for office are dismayed.
    I think the disclosure both for broadcast and mass 
communications are excellent, exactly what we need. This is a 
free society, and people need to know who is sponsoring those 
ads, how much they are paying, where they are coming from. And 
I think that goes a long way.
    So I know it is not done. I think it is headed in the right 
direction with the right intention, and I applaud you and look 
forward to working with you.
    The Chairman. Any additional statements?
    Mr. Fattah. Let me just commend the chairman. I think since 
his beginning as the Chair of this committee we have made 
remarkable progress on a whole range of issues. And this is 
another indication of the fact that really neither side is 
being stifled. You know, both bills are going to go forward. 
Those who have been opposed to Shays-Meehan, rather than just 
being opposed, now have a bill that I think is worth of the 
debate. It offers a number of innovative approaches to some of 
the problem related to campaign finances, the Shays-Meehan. And 
the Senate voted on a version, and now the modified version 
here in the House that we will be looking at over the District 
Work Period I think will give the public an opportunity to see 
the House have a serious debate and then a vote on this issue 
on campaign finance reform and then for us to be able to move 
on to other issues.
    I think that a lot of us have been mired down in this for a 
while, and I know that we would like to see some resolution one 
way or the other. And the discussions about how effective 
either version would be as law I think has to be informed by 
court decisions, that none of us can guess exactly how they are 
going to play out. But I think that we have to put our best 
effort forward.
    At lease for the Democratic party, we have I think been 
fairly clear that we think that there has to be significant 
changes in the way campaigns are financed. And we are going to 
have a chance now in the House through these bills to work our 
will and for the American public to see how the various 
parties' players, caucuses and the like react to a number of 
these issues and then to make some judgment about where we 
stand on the question of reform.
    So I want to thank the chairman, I thank the ranking member 
for their work. I look forward to moving both of these bills 
forward.
    The Chairman. Thank you.
    Mr. Linder.
    Mr. Linder. Thank you, Mr. Chairman.
    After three hearings on campaign finance reform it is 
becoming increasingly clear that the fear of perceived 
influence is driving this debate. But listen carefully to the 
statement: the fear of perceived influence. The legislation 
which would likely compromise the very principles upon which 
this Nation was founded and will likely undermine the 
individual rights secured by the Bill of Rights, not because of 
corruption or undue influence but because of perceived 
corruption and perceived undue influence.
    This is a sad day indeed. I agree that there has been a 
decline in public trust for elected officials. That is 
reflected in the public's participation in voting. Sometimes 
people don't go to the polls when they are satisfied with the 
way things are going. When looking for great change, they turn 
out in huge numbers. 1994 comes to mind. But not for one second 
do I believe that these ills will be corrected with poorly 
constructed, over-reaching and in some parts readily 
unconstitutional campaign finance reform legislation such as we 
see in Shays-Meehan.
    The Shays-Meehan bill would effectively turn our political 
system over precisely to the very outside interests the bill's 
sponsors attack. It doesn't eliminate soft money. It eliminates 
soft money for political parties. It does not have any impact 
on the millions of dollars of unregulated spending by unions or 
corporations. For other outside groups such as the Christian 
Coalition or Right to Life or National Rifle Association, they 
are left undeterred.
    It is to me a vexing thought that adults who have spent 
more than 2 years in the political process would sit there now 
and say that 200-plus years of party determination of what 
ideas should be put forth, what candidate should be selected to 
put them forth, what do we stand for in terms of a party, are 
now willing to shut down the parties in terms of their access 
to money and turn it over to the very outside interests that 
have very narrowly focused views on what is right for their 
particular constituencies.
    But, I repeat, they are undeterred--no reporting, no 
limitations on the soft dollars that they will continue to 
spend.
    If we require the political parties to rely solely on hard 
dollars, we will see an increase in this unrestricted outside 
interest soft money like we have never seen before. We are 
concerned about the influence of outside organizations, and yet 
we are giving these very groups the power to determine what 
issues will be debated, what candidates will be put forth, and 
determine elections and public perceptions of those candidates.
    The worst aspect of that eventuality is that the money to 
pay for these campaigns will be taken straight from the 
paychecks of Americans who have no say in how that money is 
spent and frequently do not agree with the message purchased 
with their head-earned dollars.
    I urge my colleagues to carefully consider the consequences 
of this bill. In addition to likely being unconstitutional, in 
addition to the fact that it provides criminal penalties for 
people involving themselves in politics, the Shays-Meehan bill 
rejects the principles upon which our Nation was founded, and 
it does nothing to address the single biggest source of secret 
money in politics today, corporate and labor soft money.
    Thank you.
    The Chairman. Thank you.
    Mr. Davis.
    Mr. Davis. The events of the last election were a painful 
reminder that, under our system of government and the 
principles on which our Shays-Meehan is based, that the power 
should belong to the people. And there is no better example of 
enshrinement of that principal than the right to vote. And I 
think today we are going to deal with the second part of that 
equation which has to do with whether the elections really 
belong to the people and their vote or whether it belongs to 
somebody else for another reason.
    As Mr. Moyer pointed out, even the Supreme Court this week 
demonstrated that the legal principle that we should guard 
against, corruption and the perception of corruption, is 
consistent with the first amendment. That point was made by a 
majority of the court. It transcended political boundaries, as 
this issue should.
    I think one of the ways to judge our success, whether it is 
the Chairman's mark or the Shays-Meehan bill, is going to be 
whether we ought to be focused on our constituents, which will 
not be easy for us to do. There is an enormous temptation, it 
is an occupational hazard for us, to focus on ourselves, and 
incumbents and challengers to focus on who will win under this 
bill, Democrats or Republicans. The truth of the matter is, we 
will never be able to predict who wins under these laws. There 
are too many other forces at work. But we know who loses if we 
don't pass meaningful campaign finance reform. The people who 
think their vote counts, the people who we tell their votes 
counts, they lose if we don't pass meaningful campaign finance 
reform.
    I think one of the problems with the current system is 
excess, Mr. Chairman, excess in terms of the obscene amount of 
money that go into races today; and I think one of the best 
examples of that excess is soft money. That is why I support a 
severe curtailment of soft money, I always say that these 
people around here who are giving hundreds of thousands of 
dollars to each political party aren't doing so for good 
government, and I see no reason why we should allow that 
practice to continue.
    One of the other most gaping loopholes in our system that 
fortunately, we are both talking about are these third-party 
ads. I was glad to hear Mr. Mica's comment that we need to have 
meaningful disclosure; and I think that should be another 
standard by which every bill is judged, whether there is, in 
fact, meaningful disclosure.
    I will never forget what these outside groups on both 
sides, as you point out, Mr. Chairman, said to our freshmen 
working group in 1997. They said, if you force us to put our 
names on these ads, we won't run them. And we said, what is the 
problem with that? If you aren't willing to put your name on 
the ads, you shouldn't be presenting information that is 
designed to influence voters and the outcome of elections.
    So I think we are making progress, Mr. Chairman. I know you 
will conduct a very fair process today. I look forward to 
moving this issue to the floor. Thank you.
    The Chairman. Thank you.
    Any other members wish to comment? Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman.
    I think this is a very ill-considered piece of legislation. 
It purports to reform the system in such a way so as to 
minimize the influence of special interest when I think history 
will show this bill of all others in modern times will prove to 
be the biggest special interest bill of all.
    Why do I say that? Because we have a comprehensive 
regulatory scheme since 1974 placed into law. This has had a 
disastrous effect on our campaigns that increasingly, as 
advertising costs have risen, caused the exploration of new 
means of campaigning. We now see routinely, I guess I can say 
based on the last three or four special elections we have had 
for the House, that you are seeing now instances where the 
amount of nonfederally regulated money exceeds the money spent 
for express advocacy by the candidate themselves. We just had 
it here very recently in Virginia; prior to that, Pennsylvania.
    This, of course, won't be able to happen in quite the same 
fashion under the provisions of Shays-Meehan. But let me tell 
you what will happen. You will have independent expenditures. 
You will have even less accountability then we have now. It 
will be a through independent expenditure, and there will be no 
accountability for anything.
    It has been may observation that the less a campaign's 
candidate is focused on, the more that it is third-party 
focused, that the more negative and the more frustrating the 
campaign are. Since you can't actually say--use the term ``vote 
for'' or ``vote against,'' it makes it more difficult to 
deliver your message. The messages I believe tend to be more 
negative, such as the ones we have heard of mentioned here 
before, the James Byrd ad, for example, maybe the most famous 
piece of negative campaign material.
    This is going to do--this is really going to hurt 
challengers. Let me tell you.
    When I ran as just a citizen in 1980 for the State Senate 
where soft money was able to be used--we didn't call it soft 
money, but that is what it would be if we described it here--I 
don't have nobody. Nobody had ever heard of me. I couldn't have 
sent out a fund-raising letter and gotten my $15 contributions 
from the broad-based support throughout the district. They 
wouldn't have contributed because my name meant nothing to 
them.
    When you get to be elected and your name is out there, you 
can send out those letters. You can raise your money that way.
    But that is not how a challenger is going to raise his 
money, by and large. The challenger has to be able to have some 
way of doing it. It is very difficult for a challenger to go 
and get, you know, these thousand dollar contributions as well. 
You may be able to get a handful of those, and from the people 
who give you $1,000 you may be able to get many times that 
amount, but there is only a very limited number of people that 
will contribute. Broad-based fund-raising is not available.
    I would venture to say I never would have won my race, 
which was an upset race in 1980, if they had to live with the 
provisions of Shays-Meehan that are before us today.
    I guess that is neither here nor there, except I think it 
is extremely unfortunate that we would put into law provisions 
that make it even more difficult for challengers to oppose the 
incumbents. The incumbents have natural advantages just by 
virtue of their incumbency. This further skews those national 
advantages way from the challengers. I don't know why we would 
want to do that. I don't know why we would seek to take what is 
a very, very bad situation brought about precisely because of 
the amount of Federal regulation we have in effect today, which 
limits the amount of money that candidates themselves can raise 
from any given source, and make it worse by now limiting the 
advocacy that occurs through the use of soft money. It is 
extremely unfortunate. I think it virtually guarantees that we 
will be back here in this committee considering yet a more 
onerous bill.
    This whole situation reminds me of a patient being treated 
by a doctor for an illness, and it turns out that when the 
illness gets worse then the dosage of the medicine is upped and 
it is upped again and again. You risk killing off the patient.
    In this case, the patient is the average American with God-
given and constitutional secured rights of free speech. What 
could be more explicit? Congress shall make no law abridging 
the freedom of speech. That is exactly what Shays-Meehan 
intends to do. They don't call it that, but that is clearly the 
effect.
    I think it is a tragedy that we have so many in the 
Congress who are willing to do this. Largely they are reacting 
to perceptions that they perceive to be someplace out there. 
That are never grounded in reality. Repeated studies have, I 
think, contradicted rather clearly this thrust.
    But we are dealing with a tiny group and a focused group 
who want this. This is going to take speech really away from 
everybody else except your big newspaper outlets, which they 
can write anything they like and be immune from regulation. 
Because while we are abridging the freedom of speech by this 
bill we are not abridging the freedom of the press, although 
the two seem to be closely related in my mind. So any newspaper 
at any point can write an editorial that, in order to get the 
equal coverage, you as a candidate would have to spend tens or 
hundreds of thousands of dollars to counteract. And they are 
free to do it, and that is okay under this bill. I think that 
is an atrocity.
    They can also, by just simply the power of what they choose 
to report or focus on, do tremendous damage to a candidate; and 
the candidate will have his hands tied even further by this 
bill with his ability to respond.
    This bill takes the approach that the patient is getting 
sicker, but with the same old medicine--we are going to do the 
same old medicine. We have Federal regulation. This will 
ratchet it up.
    Now we will have penalties. I figured it out. Section 320, 
under the penalties they have got there, if you spent $26,000 
in violation of that act, you would have a minimum fine of 
$78,000. And here is the maximum fine, $26 million, because the 
maximum is 1,000 times the amount of the contribution--not 10 
times, not a hundred times, 1,000 times. I think that that just 
shows you how extreme some of the provisions in this bill are.
    I appreciate, Mr. Chairman, the work that you are doing; 
and I thank you for the opportunity to make this statement.
    The Chairman. Thank the gentleman.
    Mr. Reynolds.
    Mr. Reynolds. I think there has been a lot of comments of 
the same tenor since the beginning of the markup on this 
legislation. I think we need to commend the Speaker for keeping 
the House focused that we will produce a bill before the 
District Work Period, that we will consider legislation on the 
floor of the House in July.
    And I need to commend both you and the ranking member, Mr. 
Hoyer, for the tenor that you have demonstrated in the hearings 
and in the process of having those Members who want to get 
engaged on campaign finance reform having that opportunity and 
do it with respect of the opportunity to garner information and 
for you, Mr. Chairman, to have the difficult task of listening 
and formulating legislation that you feel brings forward a 
level playing field that meets constitutional muster and 
reflects what you have heard among both the Nation and your 
colleagues.
    But in my district, taxes, jobs and education are the 
message of what my constituents are wondering where I am 
spending my time and what I am addressing for issues. And there 
has never been a time--I guess, if I asked, I think certainly 
all my constituents want honest elections, and they want to 
know where the money is coming from. But the reality there 
seems to be a will in the House to begin to address campaign 
finance reform and the opportunity of both not only in the 
other body but here as we move forward today in looking at that 
legislation.
    Before we are done, there will certainly be a lot of 
comments on what is a new version of Shays-Meehan.
    What I find is that I am a fan of the 1957 T-Bird. They are 
a beautiful care to me, and there is only one 1957 T-bird. So 
when you refer to a T-Bird today you would have to think of 
which generation it might be. Was it the '60s, the '70s or the 
'80s? Or now in 2000 they are bringing back a new one in 2002 
or 2003.
    Shays-Meehan is a name only. It is almost a shell as it 
continually gets reworked in order to try to assess garnering 
enough votes to be able to move it forward in this House. So 
the Shays-Meehan bill of last evening that Mr. Hoyer and 
Chairman Ney had the opportunity to review for the first time 
and I today is not the same bill as it was a few years ago or 
from the day it was introduced. From what I can gather, there 
is still this flexibility in the desire of the sponsors to 
continue shaping that in order to try to garner votes. But let 
us not be finding ourselves assuming that all of what Shays-
Meehan was in the past exists today. The continuing changes 
reflect what it takes to build the ebb and flow of garnering 
enough support to be a viable bill before this House and as far 
as consideration of passage.
    Again, as I close, I just want to thank you, Mr. Chairman, 
and you, Mr. Ranking Member, for the hard work you have done in 
leading this committee and carrying the message across America 
that we are here to listen and we are looking to develop an 
opportunity for Members to participate in both the debate and 
ultimately a vote on this issue.
    The Chairman. Thank you very much.
    As we move on, I just want to take just one more second, if 
I could, just to point out something I think also is important 
due to the statements that have been made over a series of 
months. You know, some people I think in the statements--not 
any member of this committee but some individuals have made 
statements about people's practices about the way they raise 
money or who they have been dealing with. And I think some 
individuals wear their campaign practices like a coat. It gets 
a little hot, conveniently take it off, put it on when you 
want. I call that a falseness, and I think it has been out 
there.
    When statements are blanketly made that the political 
parties of this country, the two major parties or any other 
party that is blossoming onto the scene, when statements are 
made that they are nothing more than money-laundering 
machines--and those statements have been made--that is simply 
not true of either political party or of any other party that I 
know of. Those are blanket statements that I think send out 
maybe a shock wave to try to get a vote, but they are not 
truthful statements.
    Now, nothing is perfect--no organization, no group of 
people; and bad things can happen and wrong things can happen. 
But I just want to say in closing on this that we have a lot of 
good people, and I hope that this rhetoric--not of this 
committee, because I think all members have just absolutely 
held their point of view, pushed their point of view but have 
kept us to the process the way it should be--some of the 
rhetoric that I have heard over the past series of months has 
absolutely I think been outrageous.
    As far as Mr. Shays and Mr. Meehan personally, I don't for 
one second question their integrity. I do not for one second 
think that they are false or insincere. I may disagree with the 
outcome of what I think their bill will do if it becomes law, 
but for those individuals I do believe that they have, deep in 
their heart and truthfully, have attempted to craft something 
that they think helps the system.
    I just think that I, like many Members who are so lucky to 
be where we are in serving in the U.S. Congress, still have to 
get that feeling every time they walk onto the floor and they 
head towards the Capitol--they see that Capitol, and they get 
the same feeling of the first day they had when they walked 
onto that floor.
    The second feeling is when there is a vote and you look 
across that floor and you see people from all parts of the 
country, from every economic income level, and their past 
histories, from different races, different genders, different 
philosophies. You look around there, and I am telling you that 
I may disagree with some of them, I may not personally get 
along with some of them, but we have--when you look across that 
floor and see a vote, we have a lot of good, honest people.
    So the rhetoric outside of this committee that has come 
forth I think has been shameful and disgraceful in blanket 
charges of corruption and some of the blanket statements made 
upon this institution. I think this committee sets an example 
where you can debate things but you debate it in a proper way, 
and that applies to every member of this committee, and I am 
thankful for that.
    With that, the Chair lays before the committee the bill 
H.R. 2360. The bill is open to amendment. And the Chair offers 
an amendment in the nature of a substitute that has been 
provided to the minority in advance.
    The clerk will report the amendment.
    The Clerk. The amendment in the nature of a substitute to 
H.R. 2360 offered by Mr. Ney.
    Strike all after the enacting clause and insert the 
following----
    The Chairman. I ask unanimous consent to dispense with the 
reading of the amendment.
    With no objection, so ordered.
    Question is on the amendment. Those in favor of the 
amendment----
    Mr. Hoyer. Mr. Chairman, just to reiterate what I said 
earlier, we will not be offering amendments because--again, I 
want to make it clear to those who are very critically 
interested not only in the overall issues but the specifics of 
these bills that we won't be offering perfecting amendments now 
because we expect to be looking both at your bill and at the 
Shays-Meehan offering for perfecting amendments between now and 
the Rules Committee opportunity.
    The Chairman. Thank you, Mr. Hoyer.
    The question is on the amendment. Those in favor of the 
amendment will say aye. Those opposed will say nay.
    The ayes have it.
    Mr. Mica. Mr. Chairman, I would like to ask for a recorded 
vote.
    The Chairman. A vote has been requested. The clerk will 
call the roll.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. No.
    The Clerk. Mr. Fattah.
    Mr. Fattah. Pass.
    The Clerk. Mr. Davis.
    Mr. Davis. No.
    Mr. Hoyer. Mr. Chairman, if I can explain my vote, I want 
to do so in this context. It is my expectation that your bill 
ought to move forward and will move forward, and that is the 
agreement that we essentially have. I voted no simply to 
indicate that I prefer the other alternative, although we 
haven't fully dealt with the new alternative yet, but not 
because I don't think it is appropriate for it to move forward. 
It is my expectation, pursuant to the agreement, that both will 
move forward.
    The Chairman. Thank you.
    Are there any other members who wish to record their vote?
    The Clerk. Chairman Ney.
    The Chairman. Aye.
    The Clerk will announce the vote.
    The Clerk. Five yeses, two nos, one present.
    The Chairman. The amendment is agreed to.
    The question is now on the bill as amended. Those in favor 
will say aye. Those opposed will say nay.
    The ayes--that is n-a-y. If you say n-e-y, that is a yes 
vote. Would Mr. Hoyer like to spell his vote?
    The ayes have it.
    Mr. Mica. Mr. Chairman I move that H.R.--I think we are 
going to first ask for a rollcall vote on the previous motion.
    The Chairman. Thank you. Thank you, Mr. Mica. The clerk 
will call the roll.
    Mr. Doolittle. What is the motion?
    The Chairman. This is on the question of the bill as 
amended.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. No.
    The Clerk. Mr. Fattah.
    Mr. Fattah. No.
    The Clerk. Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Chairman.
    The Chairman. Aye.
    The clerk will report the vote.
    The Clerk. Five yeses, three nos.
    The Chairman. Five yeses, three nos. The bill is adopted as 
amended.
    The Chair recognizes Mr. Mica for the purpose of offering a 
motion.
    Mr. Mica. Mr. Chairman, I move that H.R. 2360 as amended be 
reported favorably to the House and also ask for a recorded 
vote.
    The Chairman. The question is on the motion. Those in favor 
will say aye. Those opposed will say no.
    The clerk will call the roll.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. No.
    The Clerk. Mr. Fattah.
    Mr. Fattah. No.
    The Clerk. Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Ney.
    The Chairman. Aye.
    The clerk will report the vote.
    The Clerk. Five yeses, three nos.
    The Chairman. The motion is agreed to, and H.R. 2360 as 
amended is reported favorably to the House.
    Mr. Hoyer. Mr. Chairman, pursuant to the provisions of 
clause 2, paragraph 16, rule 11, the minority will seek not 
less than 2 additional calender days provided by the rule to 
prepare minority views to be filed with the report.
    The Chairman. Without objection.
    Are there any volunteers to move H.R. 2356?
    Mr. Hoyer. Mr. Chairman, I thought you were going to move 
that, but we will move H.R. 2356 for the purposes of reporting 
that to the floor.
    But I want to make it clear because--and as I do so I want 
to indicate to Mr. Reynolds, who correctly said that I think 
what Mr. Shays and Mr. Meehan are doing is trying to meet some 
of the objections that some people have, as he referred to as 
shopping for votes. Obviously, everybody in the legislative 
process does that on a regular basis.
    The reason I make that point is because there have been 
some concerns--obviously, Mr. Shays and Mr. Meehan have tried 
to, as you know, accommodate some of the Senate interests; and 
I want to make a comment as to why that has occurred.
    There is great concern about the conference, and we have 
been very positive, and I continue to want to be very positive. 
But one of the reasons for great concern is that it has been 
articulated that the Speaker, the Majority Leader and certainly 
Majority Whip are very much opposed to the legislation that is 
proposed. They have made that pretty open, and that is fine. 
But, because of that, Mr. Shays and Mr. Meehan and others have 
been very concerned about going to conference and trying to 
pass something that was acceptable back to the Senate so that 
it wouldn't have to be in conference.
    I think everybody that has followed this procedure knows 
that to be the fact. But I think it ought to be articulated 
because, in moving this bill to go forward, I do not 
necessarily endorse this version of the bill. But the 
agreement--and I appreciate the Speaker making this agreement 
with Mr. Shays, which I have not been involved nor has Mr. 
Gephardt been involved--was that both bills will come to the 
floor.
    I think that is fair. We appreciate that. The Speaker has 
been fair on that. Mr. Ney has been fair on that. But I would 
not want it misconstrued that this is the bill that we are 
presenting.
    But pursuant to the agreement, Mr. Chairman, it is my 
understanding that this will go forward either with a favorable 
or unfavorable report. And the reason I say it in that sense, 
my original reaction would have been to offer Shays-Meehan as 
introduced, rather than as modified. But I am moving it as 
modified so that that bill which Mr. Shays and Mr. Meehan want 
to go forward will go forward in the way that they have 
presented it to us.
    Mr. Doolittle. Mr. Chairman, I understand what the 
agreement is, and that is fine. Can we have the motion--
unfavorably reported? We move it out, but--it gets it out, but 
I don't want it to be reported as favorable.
    The Chairman. Let me clarify. This--a formal motion I 
assume will be forthcoming from the ranking member.
    Mr. Hoyer. I will withdraw my motion if you want to make 
that motion, and we will simply vote again that motion. That 
will do it.
    Mr. Doolittle. Okay. Then I so move.
    The Chairman. The Chair raises Mr. Doolittle for purpose of 
the motion.
    Mr. Doolittle. Then I move the committee to unfavorably 
report to the Rules Committee the Shays-Meehan bill, whatever 
the number is.
    The Chairman. To the House.
    Mr. Hoyer. 2356.
    The Chairman. 2356.
    The motion has been made. All those--the question is on the 
bill. All those in favor say aye of the unfavorable reporting. 
All those opposed.
    The ayes have it.
    Mr. Mica. Mr. Chairman, I would like a roll call vote on 
that.
    The Chairman. Roll call vote has been requested. The clerk 
will call the roll.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. No.
    The Clerk. Mr. Fattah.
    Mr. Fattah. No.
    The Clerk. Mr. Davis.
    Mr. Davis. No.
    The Clerk. Mr. Ney.
    The Chairman. Aye.
    The clerk will state the vote.
    The Clerk. Five yes, three no.
    Mr. Fattah. Mr. Chairman, can I make a parliamentary 
inquiry?
    The Chairman. Yes.
    Mr. Fattah. Would it have been possible to report both 
bills without a recommendation, unanimously?
    The Chairman. Well, if you could get the votes, but it 
wouldn't----
    Mr. Hoyer. If I could help the chairman, I think the answer 
is if that were a unanimous sentiment it would be possible.
    The Chairman. The gentleman is correct.
    Also, I should note for the record Mr. Shays is aware of 
the way the bill is going to be reported unfavorable. He knew 
one bill would be unfavorable and one favorable. I asked Chris 
today which do you think will make it on the favorable and he 
kind of knew. So we had a discussion on it, and he is aware of 
the procedure and very, very comfortable, as Mr. Meehan is, 
with this.
    Mr. Fattah. Thank you, Mr. Chairman.
    The Chairman. Mr. Hoyer.
    Mr. Hoyer. I announce that, pursuant to clause 2 of rule 
11, that the minority will seek not less than 2 additional 
calendar days provided by the rule for the appropriate minority 
views to be filed with the committee report.
    The Chairman. Without objection.
    Mr. Hoyer. You are looking at me to say something further.
    I look forward to a substantive, vigorous debate on the 
floor of the House on this legislation. I think there are 
serious issues that have been raised on both sides. Obviously, 
there are differences of opinion on the constitutionality. I 
think that we had very significant sentiment, frankly, on the 
other side of the aisle that the Supreme Court was going to 
rule in the opposite way that the Supreme Court ruled on the 
Colorado case.
    You recall that I questioned the gentleman from the ACLU 
when we had two very distinguished lawyers who disagreed with 
his proposition on the constitutionality of some of these 
issues. They are complicated issues. I think there are people 
of goodwill that can differ on what the Supreme Court is going 
to do on some of these issues. But I think there is no question 
that these are serious issues which will make a significant 
difference for the American people and for our political 
system, and to that regard they deserve the best debate that we 
can possibly give it when we return in July.
    The Chairman. I want to thank all members of this committee 
for their indulgence and patience on this issue.
    I ask unanimous consent that members have 7 legislative 
days for statements and materials to be entered into the 
appropriate place in the record. Without objection, the 
material will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's meeting. Without objection, so 
ordered.
    The committee is adjourned.
    [Whereupon, at 3:38 p.m., the committee was adjourned.]

</pre></body></html>
